                                  CLOSEOUT FOR M96040011

       This case came to OIG on April 9, 1996, when we received a letter and
supporting materials from Mr. -(the                    complainant). The complainant
alleged that
          f Dr.
             o '                                               J (the subject) had
committed misconduct in science by failing to cite the complainant's M.S.thesis as the
source of ideas and techniques that the subject used in several publications. The
complainant stated that his own work benefited from NSF support. The complainant
had previously submitted his complaint to the subject's university, whereupon a high
level university official1 sent him a written response explaining why, in the university's
view, the complaint lacked merit.

       The subject's only NSF award2 supported a workshop. OIG examined the
proposal that resulted in this award and determined that it appropriately credits the
complainant's work. We also examined the workshop's final report. It was written by
the subject's co-PI. This report does not discuss ideas or techniques similar to those
for which the complainant claims credit and does not cite the complainant's work.
There is no allegation that the co-PI committed misconduct by failing to cite the
complainant's work or that the subject committed misconduct in his declined NSF
proposals.

        We concluded that the subject's alleged misconduct in science did not occur in
the course of proposing, carrying out, or reporting results from activities connected to
NSF proposals or awards in which the subject participated and, as a result, fell outside
our jurisdiction.

       A scientist knowledgeable about the research of the subject and the complainant3
contacted OIG to express his agreement with the complainant's allegations of
misconduct in science and to allege that the subject's university handled grant funds
improperly. The scientist indicated that he was unsure whether there were NSF funds
involved in the incidents with which he was familiar. He described one such incident,
which took place six years ago. The scientist was unable to supply OIG investigators

  The official, Dr.,J-                  Dean of the School of $            '         m          a        t
the university, states in his letter that the university's president asked him to respond to the complainant's
letter.
                                                                                                        n

The co-PI was Dr.



                                          page 1 of 2
                            CLOSEOUT FOR lW6040011

with evidence that supported his allegations of financial improprieties or that indicated
that these allegations had any relationship to NSF. In the absence of such evidence and
in view of the time elapsed since the one incident that the scientist described, OIG
investigators decided that further investigation was not warranted.

       This inquiry is closed and no further action will be taken on this case.

cc: Deputy Assistant Inspector General, Oversight; Assistant Inspector General
Oversight, IG




                                  page 2 of 2
